CERTIFICATE OF SERVICE
NO. TBD
Americare Emergency Medical Service, Inc.
Petitioner,
v.
State of New Jersey, Department of Health, Office of Emergency Medical Services, James Sweeney,
Scott Phelps, Eric Hicken, Bell Medical Transportation
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
AMERICARE EMERGENCY MEDICAL SERVICE, INC. PETITION FOR WRIT OF CERTIORARI, by mailing one
(1) true and correct copy of the same by Fedex 2-Day, prepaid for delivery to the following address.
Michael R. Sarno
NJ Attorney General Office
25 Market Street
Trenton, NJ 08611
(609) 376-3200
michael.sarno@law.njoag.gov
Counsel for Respondents

Lucas DeDeus

May 7, 2021
SCP Tracking: Cleveland-1717 Pennsylvania Avenue-Cover White

